 OFFICE OF AUDIT
 REGION 1
 BOSTON




      The Lawrence Housing Authority, Lawrence, MA, Did Not
      Obtain HUD Approval To Fund a Trust Account And Had
                    Weaknesses in Its Controls




2012-BO-1004                                     July 31, 2012
                                                       Issue Date: July 31, 2012

                                                       Audit Report Number: 2012-BO-1004




TO:           Marilyn O’Sullivan, Director, Office of Public
                                                       20    Housing, 1APH



                for
FROM:         Edgar Moore, Regional Inspector General for Audit, Boston Region, 1AGA


SUBJECT:      The Lawrence Housing Authority, Lawrence, MA, Did Not Obtain HUD Approval
              to Fund a Trust Account and Had Weaknesses in Its Controls



    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG’s), final audit report on our review of the Lawrence Housing
Authority, Lawrence, MA.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation in the body of the report without a
management decision, please respond and provide status reports in accordance with the HUD
Handbook. Please furnish us copies of any correspondence or directives issued because of the
audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
212-264-4174.
                                             July 31, 2012


                                             The Lawrence Housing Authority, Lawrence, MA, Did
                                             Not Obtain HUD Approval To Fund a Trust Account
                                             And Had Weaknesses in Its Controls


Highlights
Audit Report 2012-BO-1004


 What We Audited and Why                      What We Found

We audited the Lawrence Housing              The Authority generally had acceptable management
Authority, Lawrence, MA, to determine        and financial practices to efficiently and effectively
whether it had acceptable management         administer the use of HUD Section 8 and Low
and financial practices to efficiently and   Income Public Housing Program funds in compliance
effectively administer the use of Section    with its annual contributions contracts and HUD
8 and public housing program funds in        requirements.
compliance with its annual
contributions contracts and U.S.             However Authority officials did not seek HUD
Department of Housing and Urban              approval to: (1) establish a trust for their other post
Development (HUD) requirements.              employment benefits, (2) transfer $2.5 million in
                                             reserves to fund the trust, and (3) restrict the use of
                                             these funds to the trust exclusive of any other
 What We Recommend
                                             housing-related purpose.
We recommend that the HUD Director           We also found that Authority officials did not
of Public Housing require Authority          properly delegate procurement duties, monitor or
officials to provide proper supporting       prevent interfund borrowing, have adequate
documentation to show how the $2.5           procedures for tracking and reviewing the Authority’s
million in Federal funds used to fund a      force account labor projects, and update its travel
trust benefited each Federal program or      policy. These events occurred because of specific
repay the funds to the Federal program.      weaknesses in the Authority’s management controls,
Also, HUD should obtain a legal              which affected its ability to manage its operations.
opinion identifying whether this trust       As a result, the Authority did not assign procurement
constitutes an investment, was properly      duties in writing, have sufficient awareness of
created and whether Federal funds may        interfund imbalances, have a sufficient system to
be used to pay for other post                determine whether the use of force account labor was
employment benefits. In addition,            reasonable, or have a travel policy that was adequate.
Authority officials should strengthen        By the completion of the audit, Authority officials
their management controls by updating        had begun to address most of these weaknesses and
(1) their procurement policy to delegate     strengthen their management controls.
procurement authority to employees, (2)
procedures to prevent interfund
accounts, and (3) their methods of
tracking force account labor. Also, the
updated travel policy should be
submitted to HUD and implemented.

                                                   2
                           TABLE OF CONTENTS


Background and Objectives                                                       4

Results of Audit
      Finding 1: The Authority Used Federal Funds To Create a Trust for Other
                 Postemployment Benefit Expenses Without First Obtaining HUD
                 Approval                                                       5

      Finding 2: The Authority Had Weaknesses in Its Management Controls        9

Scope and Methodology                                                           13

Internal Controls                                                               15

Appendixes
A.   Schedule of Questioned Costs                                               17
B.   Auditee Comments and OIG’s Evaluation                                      18




                                           3
                      BACKGROUND AND OBJECTIVES
The United States Housing Act of 1937 established the Federal framework for government-
funded affordable housing. The United States Congress established public housing to promote
the general welfare of the United States by assisting cities, such as Lawrence, in providing
decent and safe dwellings for low-income families. The U.S. Department of Housing and Urban
Development (HUD) disperses funds to public housing agencies under annual contributions
contracts to provide funding for housing assistance for eligible low-income families. HUD
provided funding to the Lawrence Housing Authority for 1,055 public housing units in
Lawrence, MA.

One amendment to this Act, the Quality Housing and Work Responsibility Act of 1998, created
the Housing Choice Voucher program. Under this program, HUD provides funding to public
housing authorities to pay rental subsidies directly to multifamily housing owners on behalf of
eligible tenants. The Authority administered 1,023 Section 8 vouchers for the City of Lawrence,
MA.

For the fiscal years ending March 31, 2010, and March 31, 2011, the Authority received more
than $16.3 million in Housing Choice Voucher program funds, more than $8.2 million in
operating subsidies for the low-rent housing program, and $3.4 million in capital funds. The
annual contributions contracts require the Authority to follow the U.S. Housing Act of 1937, all
applicable HUD regulations, and any amendments or changes in the Act or HUD regulations. In
addition to the HUD-funded programs, the Authority administered 104 vouchers and operated
522 housing units funded by the Commonwealth of Massachusetts.

The Authority was incorporated on October 26, 1938, under chapter 449 of the Commonwealth
of Massachusetts Acts of 1935. The principal staff member of the Authority is the executive
director, who was hired by the Authority’s board of commissioners, which has served without
change in both fiscal years 2010 and 2011. The executive director is responsible for carrying out
the policies established by the board and is delegated the responsibility for hiring, training, and
supervising his staff to manage the day-to-day operations of the Authority and ensure
compliance with Federal and State laws and directives for the programs managed.

We selected the Authority due to the size of its programs and the number of years since our last
audit. Our objective was to determine whether the Authority employed acceptable management
and financial practices to efficiently and effectively administer the use of Section 8 and public
housing program funds in compliance with its annual contributions contracts and HUD
requirements.




                                                 4
                                                RESULTS OF AUDIT


Finding 1: The Authority Used Federal Funds To Create a Trust for
           Other Postemployment Benefit Expenses Without First
           Obtaining HUD Approval
Authority officials did not obtain HUD approval before they used more than $2.5 million in
Federal funds from its Section 8 and low-income housing programs’1 reserve accounts, to fund a
$5.7 million trust for other post employment benefits. Since this type of investment is not
specifically allowed according to HUD requirements, HUD approval was necessary. Authority
officials mistakenly believed that the trust was approved by HUD because HUD’s Real Estate
Assessment Center had approved the Authority’s audited financial statements. As a result, the
$2.5 million is questionable.


    Authority Officials Paid $2.5
    Million in Federal Funds to a
    Trust

                       On February 14, 2012, Authority officials created a tax-exempt trust to be used to
                       pay for other postemployment benefits. Authority officials intended this trust to
                       be an irrevocable trust for the purpose of funding the Authority’s other
                       postemployment benefits.2

                       On March 29, 2012, the Authority funded the trust. While the trust documents
                       did not identify which Federal programs provided the funding, a breakdown
                       provided by Authority officials showed that the trust was funded with more than
                       $5.7 million, which consisted of $2.5 million from Federal programs, $1.8 million
                       from the Central Office Cost Center, and $1.4 million from State programs.

                       The Federal funds invested in the trust came from the public housing operating
                       subsidy, the Housing Choice Voucher program, and the Section 8 moderate
                       rehabilitation programs as follows:

                         Low-income public            Housing Choice Voucher              Section 8 moderate                  Federal
                         housing                      program                             rehabilitation                      programs
                         $1,933,054                   $516,223                            $60,897                             $2,510,174



1
    Low-income public housing - $1,933,053, Housing Choice Voucher program - $516,223, and Section 8 moderate rehabilitation - $60,897
2
 Other postemployment benefits are part of an exchange of salaries and benefits for employee services rendered. Of the total benefits offered by
employers to attract and retain qualified employees, some benefits, including salaries and active-employee healthcare, are paid out while the
employees are in active service, whereas other benefits, including postemployment healthcare and other postemployment benefits, are paid out
after the employees’ services have ended. Nevertheless, both types of benefits constitute compensation for employee services.

                                                                       5
    Different HUD Programs Have
    Different Regulations

                   OMB Circular A-87, codified at 2 CFR (Code of Federal Regulations) Part 2253
                   allow payment of postretirement health benefits to a third-party provider (such as
                   a doctor), a third-party insurer, or a third-party trustee maintaining a trust fund for
                   the sole purpose of providing postretirement health benefits to retirees and other
                   beneficiaries. This regulation also allows for amounts funded in excess of that
                   year’s actuarially determined other postemployment health plan amount for a
                   fiscal year if that amount is to be used as the government’s contribution in a
                   future period. This regulation is silent on dental benefits and life insurance
                   benefits. Public housing operating funds would be subject to this regulation, but
                   Housing Choice Voucher program funds would not. Housing Choice Voucher
                   program funds are further restricted.

                   For the Housing Choice Voucher program, any administrative fees from fiscal
                   years 2004 through 2012 that are later moved into the unrestricted net assets
                   account at the housing authority’s fiscal year end must be used only for activities
                   related to the provision of tenant-based rental assistance authorized under the
                   Section 8 program. In their comments, Authority officials state they used
                   administrative fee reserves prior to 2004, which may be used for other housing
                   purposes and may pay for retiree postemployment benefits. However, Authority
                   officials need to provide documentation showing the amount of administrative fee
                   reserves from 2003 and prior years.

    Authority Officials Believed
    That They Could Use Operating
    Reserves

                   HUD has specific requirements for operating reserves. Operating reserves must
                   be maintained by program and are to be used to offset operating deficits in that
                   program. HUD has specific requirements for the management of these operating
                   reserves as well. Excess funds on deposit in operating reserves must be invested
                   in a type of investment security selected by the authority and approved by HUD.
                   These securities, for the purpose of investing operating reserves, must be limited
                   to maturities of 3 years or less. HUD has many different types of allowed
                   investment options, which are listed in HUD Handbook 7475.1; however, trusts
                   are not one of these options.4 It is, however, possible to obtain HUD approval for
                   investment types that are not listed in the handbook.


3
 HUD regulations at 24 CFR 85.22, Allowable costs, (b) Applicable cost principles require governmental entities such as housing
authorities to use Office of Management and Budget Circular A-87. The Office of Management and Budget codified this circular
at 2 CFR Part 225.
4
  HUD Handbook 7475.1, Financial Management Handbook, chapter 5, Operating Reserve, paragraph 3a, Use of Operating
Reserves, identifies the limitation on operating reserves, while chapter 4, Cash Management, identifies allowed investment
options in paragraph 4.8, Approved Investment Securities

                                                              6
Authority Officials Did Not Ask
for HUD Approval


            Authority officials did not request HUD approval before using Federal funds to
            establish the trust. They advised that the payment that moved the funds to the
            trust did not constitute an investment and that the investment of the funds within
            the trust follows HUD regulations so HUD approval was not necessary. In the
            response to this finding (Appendix B) officials also stated they are investing the
            trust funds in treasury bills with a three month rollover. While Treasury bills
            invested by the Authority are one of the investment types listed in Handbook
            7575.1, we contend that funds paid or transferred to the Trust and invested in
            Treasury bills in the Trust are an investment outside of HUD. These funds, which
            are held on behalf of HUD and the Authority, require the direction of the
            Authority and approval by HUD. .

            Authority officials also believed that the Real Estate Assessment Center’s
            approval of the Authority’s financial statements constituted approval of the trust,
            as identified in one of the notes to the financial statements. All housing
            authorities are required to submit financial statements to the Real Estate
            Assessment Center. The Real Estate Assessment Center is a division within HUD
            that reviews the financial statements to determine whether the electronic
            submission has been successfully submitted to the Real Estate Assessment
            Center’s database and the data are free from mathematical errors. However;
            financial statements, which include expenditures that are ineligible for Federal
            programs, may be successfully uploaded to the Real Estate Assessment Center’s
            database,

            To properly support any portion of these funds, Authority officials needed to
            obtain specific HUD approval of the Authority’s plans for payment from each
            Federal program providing the funding. Different Federal programs have
            different regulations. Expenditures that are eligible for one Federal program may
            be ineligible for another. The HUD regional field office was unsure whether
            HUD headquarters would allow the trust and stated that it would seek a
            determination.




                                             7
             Under 2 CFR Part 225 (Office of Management and Budget Circular A–87), HUD
             may determine that funds paid from the low-income public housing and Capital
             Fund programs for health benefits are an eligible expense of the programs, but it
             is less likely that funds paid from the Housing Choice Voucher program would be
             an eligible expense unless Authority officials can demonstrate that the funds paid
             to the trust originated from the administrative fee reserve created with voucher
             funding received before 2004. In 2004, Congress directed HUD that
             administrative fee reserves created with voucher funding in 2004 must be used
             only for the provision of Section 8 rental assistance, including related
             development activity. Congress has reaffirmed this decision in appropriation bills
             since 2004.

Conclusion

             Authority officials used more than $2.5 million in Federal low income operating
             reserve funds to create a trust to pay for the other postemployment benefits for its
             retirees. We contend that without direction or approval by HUD, on the trust’s
             formation and movement of funds to the trust, the 2.5 million is unsupported.
             Accounting standards require the recognition of this liability, but do not require a
             trust. Different Federal programs have different rules regarding the use of reserve
             funds for expenditures. Nevertheless, Authority officials did not request or
             receive HUD’s approval to use Federal funds for this trust. This condition
             occurred because Authority officials did not believe the movement of funds to the
             trust constituted an investment, but did believe that the trust was approved by
             HUD since HUD’s Real Estate Assessment Center had approved the Authority’s
             audited financial statements. As a result, we maintain that the 2.5 million is
             unsupported.

Recommendations

             We recommend that the HUD, Director of the Office of Public Housing, Boston
             Hub require Authority officials to

             1A.   Provide proper supporting documentation to show how the $2,510,174 in
                   Federal funds benefited and was an allowable expense of each program or
                   repay the funds to that Federal program.

             In addition, we recommend that the HUD, Director of the Office of Public
             Housing, Boston Hub

             1B.    Obtain a legal opinion identifying whether (1) this trust was properly created
                    and (2) the identified Federal funds may be used to specifically pay for other
                    postemployment benefits, specifically health insurance, dental insurance, and
                    life insurance of retired Authority employees.


                                              8
Finding 2: The Authority Had Weaknesses in Its Management Controls
The Authority had weaknesses in its management controls. Specifically Authority officials did
not properly delegate procurement duties, monitor or prevent interfund borrowing, have adequate
procedures for tracking and reviewing the Authority’s force account labor projects, or update and
implement its travel policy. These events occurred because of specific weaknesses in the
Authority’s management controls, which affected its ability to manage its operations. As a
result, the Authority’s procurement policy did not assign procurement duties in writing, the
Authority made interfund transfers from the Housing Choice Voucher program, it was difficult to
determine whether the use of force account labor was reasonable, and the Authority’s travel
policy was not adequate. At the completion of the audit, Authority officials had begun to address
most of these weaknesses and strengthen their management controls


 Good Management Controls
 Are Needed

              The imposition of good financial management controls is a critical component of
              any public housing authority’s financial management process. Management
              controls, also called internal controls, are procedures and systems that are
              designed to provide reasonable assurance of achieving effective and efficient
              operations, reliable financial and performance reporting, and compliance with
              applicable laws and regulations.

 The Authority did not formally
 assign procurement duties to
 Personnel involved in
 Procurement

              Authority officials did not formally assign procurement duties to personnel
              involved in procurement. HUD Handbook 7460.8, REV-2, paragraph 2.3, entitled
              Delegation of Authority, requires housing authorities to establish policies for
              procurement and the delegation of procurement authority. The policy should
              clearly delegate the limits of the authority in terms of the dollar value of
              individual obligations the person may make and any other limits (for example, the
              types of contracts the individual may award, such as small purchases).
              Delegations should also state whether the recipient may further delegate any of
              the authority and, if so, how much. Proper delegation of procurement authority
              protects the Authority from improper procurement actions, overstatement of
              responsibility, and the appearance of impropriety. While we found no improper
              behavior in the contracts examined, Authority officials should update the
              Authority’s procurement policies to identify, which employees have procurement
              authority, clearly state the limits of the authority for each employee, and identify
              whether re-delegation is allowed.


                                               9
The Authority Needs To
Increase Monitoring of
Interfund Accounts

            Authority officials did not routinely review interprogram funds to ensure that
            funds owed from one program to another program were evaluated and eliminated.
            Officials relied on their financial software for interfund transfers. This software
            contained features that allowed interprogram fund management and automated
            reconciliation of downloaded bank transactions. Authority officials did not
            reconcile these accounts daily, and did not eliminate outstanding balances.
            Routine evaluation of these transactions would help Authority officials ensure that
            all expenditures are necessary and properly assigned to their respective HUD
            program.

            Each year, Congress provides funding to HUD to operate specific programs,
            including the Housing Choice Voucher program, the public housing low-income
            housing program, and the Single Room Occupancy program. HUD entrusts these
            funds to public housing authorities through the provisions of the annual
            contributions contracts to operate these programs. These annual contributions
            contracts require that program receipts be used only for program expenditures.
            Each program has a separate annual contributions contract, and funds for that
            program may not be used for any other program.

The Authority Needs To
Strengthen the Monitoring of
Forced Account Activity

            Authority officials use a force account labor to accomplish many of their capital
            improvements. Force account labor is labor employed directly by a public
            housing authority on either a permanent or a temporary basis. For each job using
            force account labor, Authority officials prepared an initial cost estimate to plan
            their force account jobs. We found that the prices used in the initial cost estimates
            were reasonable, but it was harder to determine the reasonableness of jobs where
            costs increased after the initial cost estimate.

            In their 2010 annual plan, Authority officials estimated that $1,974,461 from their
            2007 and 2008 Capital Fund grants would be expended. However, funds
            expended exceeded the estimates by $896,856. This caused authority officials to
            prematurely draw funds from their 2009 Capital Fund grant. When discussing
            specific jobs, Authority officials explained that sometimes expenses exceeded
            estimates due to increases in material costs while other times expenses exceeded
            estimates due to the type of work being performed. There were also occasions
            where cost savings allowed the Authority to complete additional projects.
            Because of the systems used by the Authority, we found that it was extremely


                                             10
            difficult to determine the reasonableness of each job that exceeded the initial cost
            estimate.

            Authority officials tracked the expenses of its force account jobs using a
            commercial accounting software package, spreadsheets, and their general ledger.
            However; we found no system to track changes to the planned scope of work.
            HUD regulations do not require change orders for force account jobs; however 2
            CFR 225 requires the costs to be reasonable in price. Without a system to show
            that the increase in the scope of work was reasonable, we were unable to
            determine that the jobs completed with force account labor were reasonable in
            price. Establishing a system to track the jobs planned, costs per job, and jobs
            completed will give the Authority better ability to ensure the reasonableness of
            the costs.

            When we discussed this situation with the executive director, he suggested that
            the Authority could add a system similar to a contract log to track the cost of jobs
            completed with force account labor. Such a system would enhance the
            Authority’s management controls and in the long run help the Authority to better
            control costs of projects using force account labor.


The Authority’s Travel Policy
Needed To Be Updated

            Before the start of our review, Authority officials had a section of its personnel
            policy devoted to travel expenditures. However, this policy was not adequate
            because it (1) did not identify the need for preapproval of travel expenses, (2) did
            not spell out eligible and ineligible expenditures, (3) did not identify fully the
            documentation necessary to support travel expenditures, and (4) did not identify
            the relationship of travel to the work of the Authority. After we discussed our
            concerns with the executive director, Authority officials began changing their
            travel policy. The new policy

                   Identified eligible and ineligible expenditures,
                   Provided clear lines of authority regarding the preapproval of travel to
                   conferences and meetings,
                   Updated the mileage rates to meet Internal Revenue Service guidelines,
                   Updated the meal allowances to meet General Services Administration
                   guidelines, and
                   Explained the need for detailed travel expenses and supporting
                   documentation for travel expenses.

            Proper implementation of this policy will protect the Authority’s interests and
            prevent abuse of travel expenditures.



                                             11
Conclusion

             The Authority had weaknesses in its management controls. Specifically
             Authority officials did not properly delegate procurement duties, monitor or
             prevent interfund borrowing, have adequate procedures for tracking and
             reviewing the Authority’s force account labor projects, or update and implement
             its travel policy. These events occurred because of inadequate attention to these
             specific management areas. Therefore, implementing procedures to prevent
             interfund accounts, formalizing the Authority’s procedure into a force account
             labor policy, and implementing a HUD-approved travel policy would help
             Authority officials enhance operations and their ability to help the families of
             Lawrence, MA.

Recommendations

             We recommend that the HUD, Director of the Office of Public Housing, Boston
             Hub require Authority officials to

             2A.    Update the Authority’s procurement policy in writing to ensure that
                    procedures are implemented for delegating procurement authority to
                    employees with clear responsibilities, such as the type and dollar value of
                    procurement allowed.

             2B.    Establish and implement procedures to regularly review and prevent
                    interfund transactions and provide assurances to HUD that Authority
                    officials will not use Housing Choice Voucher or other restricted funds for
                    purposes other than to pay the expenses of these programs.

             2C.    Implement a system that allows for review of Force Account cost changes
                    and / or scope of work for reasonableness and develop a better system for
                    tracking and monitoring force account labor and producing timely and
                    comprehensive records on each job.

             2D.    Submit the revised travel policy that the auditee prepared, for HUD review
                    and implement the policy when approved.




                                             12
                        SCOPE AND METHODOLOGY

We conducted the audit between September 2010 and April 2012. Our fieldwork was conducted
at the Authority’s main office located at 353 Elm Street, Lawrence, MA, and at the maintenance
office located at 65 Union Street, Lawrence, MA. Our audit covered the period April 1, 2009, to
March 31, 2011, and was extended when necessary to meet our objective. To accomplish our
audit objective, we

       Reviewed program requirements including Federal laws, regulations, handbooks, notices,
       and annual contributions contracts.

       Interviewed the Authority’s executive director of occupancy and leasing, chief financial
       officer, maintenance and operations manager, deputy for management and operations,
       director of construction and design, and fee accountant.

       Reviewed the financial statements, general ledgers, journal voucher entries, Section 8
       administrative plan, annual plans, 5-year plan, and cost allocation plans;

       Reviewed the maintenance purchase order listing of all purchase orders from
       April 1, 2009, to March 31, 2011, and traced a purchase order to the supporting
       requisitions and the general ledger detail.

       Reviewed all modernization purchase orders over $2,000 to determine whether purchase
       orders were sequentially numbered, properly procured, and maintained according to HUD
       requirements and the Authority’s procurement policy.

       Reviewed 7 out of 18 contracts to determine whether the contracts were properly
       procured and related expenditures were properly supported. The Authority separated its
       procurement into three categories: maintenance, modernization, and Section 8. We
       reviewed the four largest maintenance contracts, the largest modernization contract and
       the two largest Section 8 contracts.

       Selected a representative, nonstatistical sample of 8 of 31 conferences to determine
       whether the expenses were properly documented, the nature of the conference related to
       federally subsidized housing, and whether there was a third-party review of the
       expenditures and supporting documentation. We selected this sample of units without a
       special reason for including or excluding items.

       Examined the Authority’s unrestricted cash, unrestricted net assets, and trust for other
       postemployment benefits.

       Reviewed the Authority’s cost allocations, portability, rent reasonableness, interprogram
       fund transfers, procurement, and travel to determine whether the Authority officials
       established and implemented management controls.


                                                13
       Reviewed the Authority’s procedures for force account labor to ensure compliance with
       HUD regulations and Davis Bacon wage rates.

       Reviewed Capital Fund program requisitions and supporting documentation to determine
       whether force account labor was adequately supervised, tracked, and documented.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective(s).




                                               14
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Controls over use of restricted and unrestricted cash reserves;
                      Controls over cost allocations and interprogram accounts;
                      Controls over procurement, including the delegation of authority and use
                      of force account labor;
                      Controls over travel expenses.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:




                                                 15
Authority officials used more than $2.5 million in Federal funds to create
a trust for other postemployment benefits without first obtaining HUD
approval (See finding 1).

The Authority had weaknesses in its management controls related to
delegating procurement duties, interfund borrowing, tracking, and
reviewing its force account labor projects, and implementing updated
travel policies (See finding 2).




                         16
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                                       Unsupported
     Recommendation
                                           1/
         number
           1A                           $2,510,174

1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6


Comment 7




                         22
Ref to OIG Evaluation                Auditee Comments




Comment 8




                        OIG Evaluation of Auditee Comments




                                       23
                            OIG Evaluation of Auditee Comments

Formal comments were received on July 13, 2012 and we made changes to the draft report as
appropriate in response to the auditee’s written comments. Below, is our evaluation of the
comments, referenced in the first part of this appendix where they are presented. The auditee did
not agree with any of our recommendations on the OPEB Trust in finding 1, but they did agree
with our recommendations to strengthen controls in finding 2.

Comment 1     Congress appropriates funding for HUD annually, and HUD uses this money to
              fund all of HUD’s programs including the Housing Choice Voucher Program.
              Congress made additional changes in the appropriations laws by rescinding
              funding for the Operating Subsidy and Housing Choice Voucher programs, as
              well as issuing new appropriations laws that govern the eligible uses of funds for
              these programs. These appropriation laws also include instruction to HUD on
              how the funding may be used. In PIH Notice 12-09, HUD identified that the
              appropriations law restricts the usage of fees that housing authorities earn under
              the Housing Choice Voucher Program in that these fees must be used only for
              activities related to the provision of tenant-based rental assistance. Authority
              officials used $516,223 in voucher funds to invest in a trust that is designed to pay
              out future other post-employment benefits to eligible employees who retired from
              the Lawrence Housing Authority. Prepaying future benefits to retirees is not an
              eligible expense because it does not provide tenant-based rental assistance to
              eligible families. As such, this finding will not be removed from the report.

Comment 2     We recognize the efforts of Authority Officials to gain financial capacity and their
              initiative in protecting the benefits of their retirees, but our concern is that the
              PHA’s investment may not be in the best interest of the program or in compliance
              with the Appropriations Act provisions and HUD approval should have been
              obtained in advance of the investment.

Comment 3     We evaluated the auditee’s comment, and revised the title of this section of the
              finding. Nevertheless, the Authority official’s actions are responsive to our
              recommendation.

Comment 4     We evaluated the auditee’s comment, and revised the title of this section of the
              finding.

Comment 5     We agree and we removed the amount but kept the issue in our controls finding,
              since other years reviewed showed similar weaknesses.

Comment 6     We evaluated the auditee’s comment, and revised the title of this section of the
              finding.

Comment 7     We agree with the auditee’s statements on the knowledge and quality their staff
              and that capital improvements were properly accounted for, however, we
              maintain; that there should be a system to document reasonableness of additional

                                               24
             costs after the initial cost benefit analysis so that it can more easily be determined
             that changes in the scope and methodology of any force account job are
             reasonable.

Comment 8 Although Authority officials have updated the travel policy, they need to submit the
          policy to HUD for review and closure of this recommendation.




                                               25
